  Department of Health and Human Services
                     OFFICE OF
                INSPECTOR GENERAL


   POTENTIA NAMIBIA RECRUITMENT
 CONSULTANCY GENERALLY MANAGED
  THE PRESIDENT’S EMERGENCY PLAN
   FOR AIDS RELIEF FUNDS AND MET
PROGRAM GOALS IN ACCORDANCE WITH
        AWARD REQUIREMENTS


    Inquiries about this report may be addressed to the Office of Public Affairs at
                             Public.Affairs@oig.hhs.gov.




                                                     Gloria L. Jarmon
                                                  Deputy Inspector General

                                                          April 2013
                                                        A-06-11-00056
                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                   EXECUTIVE SUMMARY

BACKGROUND

The United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003
(P.L. No. 108-25) (the 2003 Act) authorized the President’s Emergency Plan for AIDS Relief
(PEPFAR). PEPFAR’s initial authorization of $15 billion expired on September 30, 2008. The
Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (P.L. No. 110-293) (the 2008 Act)
authorized an additional $48 billion for the 5-year period beginning October 1, 2008, to assist
foreign countries in combating HIV/AIDS, tuberculosis, and malaria.

The 2008 Act gives the Department of Health and Human Services’ (HHS) Centers for Disease
Control and Prevention (CDC) a leadership role in several key areas of research and evaluation
in implementing HIV/AIDS programs, including program monitoring, impact evaluation, and
operations research. Through its Global HIV/AIDS Program, CDC implemented PEPFAR,
working with ministries of health and other in-country partners to combat HIV/AIDS by
strengthening health systems and building sustainable HIV/AIDS programs in more than 75
countries in Africa, Asia, Central and South America, and the Caribbean.

HHS receives PEPFAR funds from the Department of State through a memorandum of
agreement, pursuant to the Foreign Assistance Act of 1961 (P.L. No. 87-195), as amended, and
the 2003 Act, as amended. For fiscal year 2009, CDC “obligated” PEPFAR funds totaling $1.2
billion. CDC awarded these funds through cooperative agreements, which it uses in lieu of
grants when it anticipates the Federal Government’s substantial involvement with recipients in
accomplishing the objectives of the agreements. The regulations that apply to Federal grants
also apply to cooperative agreements.

Through a 5-year cooperative agreement (grant number 5U62PS025154), CDC awarded
PEPFAR funds totaling $14,486,635 to Potentia Namibia Recruitment Consultancy (Potentia) for
the budget period April 1, 2009, through March 31, 2010. Potentia provides management and
recruitment services, including a variety of human resource management services, such as
payroll. Potentia entered the cooperative agreement with CDC to support the Namibia Ministry
of Health’s (Ministry) efforts to combat the HIV/AIDS epidemic in Namibia. The goals of the
cooperative agreement were to:

    •   advertise for and recruit medical professionals, technical specialists, and administrative
        support personnel;

    •   manage the payroll function for PEPFAR employees; and

    •   support human resources management.




                                                 i
OBJECTIVE

Our objective was to determine whether Potentia managed PEPFAR funds and met program
goals in accordance with the award requirements.

SUMMARY OF FINDINGS

Potentia generally managed PEPFAR funds and met program goals in accordance with award
requirements. With respect to financial management, specifically financial transaction testing,
we found that $249,062 of $250,710 was allowable but $1,648 was not. Specifically, of the 30
financial transactions tested, 26 transactions totaling $185,113 were allowable. However, for
two transactions totaling $37,177, Potentia overstated costs by $2,846; for two transactions
totaling $28,420, Potentia understated costs by $1,198. In addition, Potentia used $173,354 of
PEPFAR funds to pay potentially unallowable value-added taxes (VAT) on earnings from
recruitment services and retainer fees. Furthermore, although Potentia had adequate support for
35 sample items from its interim progress report, it did not submit an annual progress report.

These errors occurred because Potentia did not have adequate policies and procedures to ensure
that all expenditures were allowable and that it filed an annual progress report.

RECOMMENDATIONS

We recommend that Potentia:

   •   refund $1,648 in net unallowable expenditures,

   •   work with CDC to resolve whether the $173,354 of VAT was an allowable expenditure
       under the cooperative agreement, and

   •   develop and implement policies and procedures for ensuring that:

           o all expenditures are allowable and

           o annual progress reports are submitted in a timely manner.


POTENTIA NAMIBIA RECRUITMENT CONSULTANCY COMMENTS

In comments on our draft report, Potentia concurred with our recommendations and described
corrective actions that it had taken or planned to take to address most of our recommendations.




                                                ii
                                                  TABLE OF CONTENTS

                                                                                                                                  Page

INTRODUCTION.................................................................................................................... 1

          BACKGROUND ........................................................................................................... 1
              President’s Emergency Plan for AIDS Relief .................................................... 1
              Centers for Disease Control and Prevention ...................................................... 1
              Potentia Namibia Recruitment Consultancy ...................................................... 2
              Federal Requirements and Departmental Policies…. ........................................ 2

          OBJECTIVE, SCOPE, AND METHODOLOGY ......................................................... 2
               Objective ............................................................................................................ 2
               Scope .................................................................................................................. 3
               Methodology ...................................................................................................... 3

FINDINGS AND RECOMMENDATIONS .......................................................................... 4

          FINANCIAL MANAGEMENT .................................................................................... 4
               Financial Transaction Testing ............................................................................ 4
               Value-Added Taxes Paid ................................................................................... 5

          PROGRAM MANAGEMENT ...................................................................................... 5

          RECOMMENDATIONS ............................................................................................... 6

          POTENTIA NAMIBIA RECRUITMENT CONSULTANCY COMMENTS ............. 6

APPENDIX

          POTENTIA NAMIBIA RECRUITMENT CONSULTANCY COMMENTS




                                                                    iii
                                                 INTRODUCTION

BACKGROUND

President’s Emergency Plan for AIDS Relief

The United States Leadership Against HIV/AIDS, Tuberculosis, and Malaria Act of 2003
(P.L. No. 108-25) (the 2003 Act) authorized the President’s Emergency Plan for AIDS Relief
(PEPFAR). PEPFAR’s initial authorization of $15 billion expired on September 30, 2008. The
Tom Lantos and Henry J. Hyde United States Global Leadership Against HIV/AIDS,
Tuberculosis, and Malaria Reauthorization Act of 2008 (P.L. No. 110-293) (the 2008 Act)
authorized an additional $48 billion for the 5-year period beginning October 1, 2008, to assist
foreign countries in combating HIV/AIDS, tuberculosis, and malaria. The Department of Health
and Human Services (HHS) receives PEPFAR funds from the Department of State through a
memorandum of agreement, pursuant to the Foreign Assistance Act of 1961 (P.L. No. 87-195),
as amended, and the 2003 Act, as amended.

Centers for Disease Control and Prevention

The 2008 Act gives HHS’s Centers for Disease Control and Prevention (CDC) a leadership role
in several key areas of research and evaluation in implementing HIV/AIDS programs, including
program monitoring, impact evaluation, and operations research. Through its Global HIV/AIDS
Program, CDC implemented PEPFAR, working with ministries of health and other in-country
partners to combat HIV/AIDS by strengthening health systems and building sustainable
HIV/AIDS programs in more than 75 countries in Africa, Asia, Central and South America, and
the Caribbean.

For fiscal year (FY) 2009, CDC “obligated” 1 PEPFAR funds totaling $1.2 billion. CDC
awarded these PEPFAR funds through cooperative agreements, which it uses in lieu of grants
when it anticipates the Federal Government’s substantial involvement with recipients in
accomplishing the objectives of the agreements. 2 In response to a Funding Opportunity
Announcement (FOA), 3 CDC awarded Potentia Namibia Recruitment Consultancy (Potentia)
grant number 5U62PS025154 through a cooperative agreement for the project period September
30, 2005, through September 29, 2010.




1
 “Obligated” funds are amounts for which the recipient has made binding commitments for orders placed for
property and services, contracts and subawards, and similar transactions during a funding period that will require
payment during the same or a future period per HHS’s Grants Policy Directives 1.02, the highest level of policy
within HHS that governs grants.
2
    The regulations that apply to Federal grants also apply to cooperative agreements.
3
 FOA Number CDC-RFA-AA-108 is entitled: Building Human Resource Capacity Within the Ministry of Health
and Social Services in the Republic of Namibia as Part of the President’s Emergency Plan for AIDS Relief.

                                                            1
Potentia Namibia Recruitment Consultancy

Potentia provides management and recruitment services, including a variety of human resource
management services, such as payroll. Potentia entered into the cooperative agreement with
CDC to support the Namibia Ministry of Health’s (Ministry) efforts to combat the HIV epidemic
in Namibia. The goals of the cooperative agreement were to:

     •   advertise for and recruit medical professionals, technical specialists, and administrative
         support personnel;

     •   manage the payroll function for Ministry and International Training and Education
         Center for Health (I-Tech) 4 employees funded by PEPFAR; and

     •   support human resources management.

Federal Requirements and Departmental Policies

The grant rules in 45 CFR part 92 apply to State, local, and tribal governments. The grant
administration rules in 45 CFR part 74 apply to nonprofit organizations, hospitals, institutions of
higher education, and commercial organizations. The HHS Grants Policy Statement (GPS),
which provides general terms and conditions and HHS policies for grantees and others interested
in the administration of HHS grants, specifies that foreign grantees must comply with the
requirements of 45 CFR parts 74 or 92, as applicable to the type of foreign organization (GPS II-
113). Thus, the rules in 45 CFR part 74 apply to a foreign commercial organization. Also, the
cost principles of the Federal Acquisition Regulation at 48 CFR part 31 apply to commercial
organizations.

This cooperative agreement was subject to the grant administration rules in 45 CFR part 74 and
the terms and conditions detailed in the notice of award (NOA). Furthermore, CDC incorporated
by reference the FOA and the application that CDC received from Potentia on May 16, 2009, as
a part of this award.

OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether Potentia managed PEPFAR funds and met program
goals in accordance with the award requirements.




4
 I-Tech is a center in the University of Washington’s Department of Global Health that works with local ministries
of health, universities, nongovernmental organizations, and other partners to help develop skilled health work forces
and national health delivery systems.

                                                          2
Scope

Our audit covered the budget period April 1, 2009, through March 31, 2010. The budget period
was the 4th year of a 5-year cooperative agreement. During the budget period under review,
CDC awarded Potentia $14,486,635.

We limited our review of Potentia’s internal controls to those related to our objective. We
conducted fieldwork at Potentia’s offices in Windhoek, Namibia, from October through
November 2011.

Methodology

To accomplish our objective, we:

    •   reviewed relevant Federal laws and regulations, HHS guidance, the FOA, the NOA, and
        Potentia’s policies and procedures;

    •   interviewed and conducted meetings with Potentia to determine its processes and
        procedures related to financial accounting and reporting and program goals and
        accomplishments;

    •   reconciled Potentia’s Financial Status Report (FSR) 5 to its audited financial statements
        for the budget period under review;

    •   selected and reviewed a judgmental sample of 30 financial transactions with expenditures
        totaling $250,710 from the grant award of $14,486,635, and generally included the
        highest dollar expenditures from various cost categories;

    •   identified the amount of value-added taxes (VAT) that Potentia paid with PEPFAR funds;

    •   compared the accomplishments described in Potentia’s interim progress report to the
        cooperative agreement’s goals and objectives;

    •   selected a judgmental sample of 35 accomplishments described in Potentia’s interim
        progress report and reviewed supporting documentation to determine whether Potentia
        met program goals and objectives; and

    •   determined if Potentia had an audit in accordance with 45 CFR § 74.26(d).

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions

5
 Pursuant to 45 CFR § 74.52(a)(1)(iv), FSRs are due to the CDC Grants Management Office 90 days after the end
of the budget period. FSRs provide information to CDC on current expenditures and on carryover balances (if any).
In addition, these documents are considered in future funding decisions.

                                                        3
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

FINDINGS AND RECOMMENDATIONS

Potentia generally managed PEPFAR funds and met program goals in accordance with award
requirements. With respect to financial management, specifically financial transaction testing,
we found that $249,062 of $250,710 was allowable but $1,648 was not. Specifically, of the 30
financial transactions tested, 26 transactions totaling $185,113 were allowable. However, for
two transactions totaling $37,177, Potentia overstated costs by $2,846; for two transactions
totaling $28,420, Potentia understated costs by $1,198. In addition, Potentia used $173,354 of
PEPFAR funds to pay potentially unallowable value-added taxes (VAT) on earnings from
recruitment services and retainer fees. Furthermore, although Potentia had adequate support for
35 sample items from its interim progress report, it did not submit an annual progress report.

These errors occurred because Potentia did not have adequate policies and procedures to ensure
that all expenditures were allowable and that it filed an annual progress report.

FINANCIAL MANAGEMENT

Financial Transaction Testing

Pursuant to 45 CFR § 74.21(b)(7), recipients’ financial management systems must provide
accounting records that are supported by source documentation. Federal regulations (48 CFR §
31.201-2(d)) further state: “A contractor is responsible for accounting for costs appropriately
and for maintaining records, including supporting documentation, adequate to demonstrate that
costs claimed have been incurred, are allocable to the contract, and comply with cost principles
in this subpart and agency supplements.”

Of the 30 financial transactions tested, 26 transactions totaling $185,113 were allowable.
However, for two recorded transactions totaling $37,177, Potentia overstated costs by $2,846; for
two recorded transactions totaling $28,420, Potentia understated costs by $1,198. As a result,
Potentia claimed $1,648 in unallowable costs.

Specifically, Potentia:

    •    overstated its fee for the recruitment of 13 nurses by $1,879,

    •    overstated the salary and retainer fee for a Ministry employee’s adjusted leave pay by
         $967, 6

    •    understated its fee for the recruitment of 6 medical officers by $1,137, and


6
 For its payroll services, Potentia received a retainer fee equal to 11 percent of the salaries paid to Ministry and I-
Tech employees funded by PEPFAR.


                                                            4
      •    understated its fee for the recruitment of a regional study coordinator by $61.

Potentia paid inaccurate amounts for these transactions because it did not have adequate policies
and procedures to ensure that it accurately paid costs.

Value-Added Taxes Paid

Pursuant to the HHS GPS (section II-114), certain costs, including VAT, 7 are unallowable under
foreign grants and domestic grants with foreign components. Also, bilateral agreements with
foreign governments may stipulate an exemption from paying the VAT for those contractors and
grantees that are funded by the United States and providing foreign aid. 8

During the audit period, Potentia used $173,354 of PEPFAR funds to pay the VAT, a potentially
unallowable cost for this grant. Potentia paid the VAT at a rate of 15 percent for its earnings
from recruitment services and retainer fees. Potentia’s executive consultant stated that he had
discussed obtaining an exemption from the VAT rule and receiving a refund of VAT expenses
with CDC and the Namibian Government. However, the Namibian Government has yet to
approve the exemption status and refund the VAT to Potentia.

PROGRAM MANAGEMENT

Pursuant to 45 CFR § 74.51(b), recipients are required to submit annual progress reports unless
the awarding agency requires quarterly or semiannual reports. Annual reports are due 90 days
after the end of the grant year. The notices of award provide the due dates for progress reports.

Pursuant to 45 CFR § 74.52(d)(1)(2)(3), progress reports should contain a comparison of actual
accomplishments to the objectives established for the period. Also, progress reports should
contain the reasons that any established goals were not met and the additional pertinent
information, including, when appropriate, analysis and explanation of cost overruns or high unit
costs.

Potentia did not submit its annual progress report, which was due on June 30, 2010. The date of
Potentia’s interim progress report was January 27, 2010. According to its managing consultant,
Potentia did not submit an annual progress report because no reportable changes occurred
between the preparation of the interim report and March 31, 2010, the end of the budget period.
However, the total number of employees increased by seven during that time. Potentia did not
have adequate policies and procedures to ensure that it filed an annual progress report.




7
    A VAT is a form of consumption tax.
8
 HHS is currently reexamining the applicability of the GPS provision; thus, we are not recommending a
disallowance. Instead, we recommended that Potentia work with CDC to resolve the issue.



                                                       5
RECOMMENDATIONS

We recommend that Potentia:

   •   refund $1,648 in net unallowable expenditures,

   •   work with CDC to resolve whether the $173,354 of VAT was an allowable expenditure
       under the cooperative agreement, and

   •   develop and implement policies and procedures for ensuring that:

           o   all expenditures are allowable and

           o   annual progress reports are submitted in a timely manner.


POTENTIA NAMIBIA RECRUITMENT CONSULTANCY COMMENTS

In comments on our draft report, Potentia concurred with our recommendations and described
corrective actions that it had taken or planned to take to address most of our recommendations.
Potentia’s comments are included in their entirety as the Appendix.




                                                6
APPENDIX
                                                                                                       Page 1 of2

APPENDIX: POTENTIA NAMIBIA RECRUITMENT CONSULTANCY COMMENTS 





      Ms. Patricia Wheeler
      Regional Inspector General for Audit Services
      Office ofAudit Services, Region VI
      I I 00 Commerce Street, Room 632
      Dallas, TX 75242

      20 February 20 13

      Dear Ms. Wheeler:

      Reference: Draft OIG Report Number A-06-11-00056
      Co-operative agreement number: 5U62PS025154
      F u ndi ng opportunitv number : PSl0-1096
      B uilding human capacity with in th e M inistry of Health and Social Services

      This letter serves as a response to your letter dated I 6 January 20 I 3, regarding the draft report on
      "Potentia Namibia Recruitment Consultancy Generally Managed the President's Emergency
      Plan for AIDS ReliefFunds and Met Program Goals in Accordance with the Award
      Requirements."

      As the management of Potentia, we welcome the report as this was the first OJG audit conducted
      on our operations and the outcomes listed will enable us to improve and strengthen our contro ls
      and systems to ensure funds are managed in accordance with the award requirements. We would
      also like to thank the OIG team, during their time on-site provided our office with valuable
      informal training and guidance on CDC financial requirements.

      We concur with all recommendations as stated in the report and we have outlined our corrective
      actions on these matters.

              •!• 	 OIG Recommendation: Refund $1 ,648 in net unallowable expenditures.

                 P oten tia Response: Potentia agrees with the find ing. We have received your details on
                 this refund and will review them for correction. In addition , we have strengthened
                 controls over the posting ofexpenditures. We currently employ an outside consu ltant
                 fi·om PriceWaterhouseCoopers to perform monthly reviews on the accounting system and
                 verify and post journal entries prepared by the accountant each month. Also we are in the
                 process ofappointing an Assistant Accountant and we trust that this would ensure greater
                 segregation oftasks and improved checking controls. We will reiterate the need to
                 validate expenditures against the appropriate source documents.

              •!• 	 OIG Recommendation : Work with CDC to resolve whether the $173,354 of VAT was
                    an allowable expenditure under the cooperative agreement.

                 Potentia Response: Potentia agrees the VAT taxes were paid from grant funds in
                 accordance with Namibian Law which requires the payment of VAT on any service or
                 goods purchased. Potent ia does not currently qualify for reimbursement under the laws




                                   POTENTIA NAMIB I A RECRUITMENT CONSULTANCY CC 

       T EL     • 264 61 381000   FAX  -264 61 272745     WVIW POTE,.,TI A COM , NA PO BOX 21904 WINOHOEK 


                   MEMBERS ·CRAIG DENNIS , ZAYANIH O!;NNIS.   CC REGISTRAT I ON NUMBER   98/1140
                                                                                           Page 2 of2




       ofNamibia. However, the work done on the cooperative agreement programmatic
       activities is similar in nature to the work performed by other partners here in Namibia
       who does receive reimbursement of VAT paid. The Centers for Disease Control (CDC)
       Cou ntry Office will work with the Namibian Government to request reimbursement for
       VAT paid for the activities and expenditures wh ich were carried out by Potentia to fulfill
       the terms of the cooperative agreement. ln addition, Potentia will apply to the Namibian
       Government for exempt status from VAT for CDC funded activities undertaken going
       forward. If the application for exemption is denied, Potentia will utilize the CDC appeal
       process to seek relief from reimbursement of VAT expenditures. In addition Potentia will
       review and adhere to applicable guidance regarding allowability of expenditures to the
       fullest extent possible when disbursing grant funds.

   •:• OTG Recommend a t ion : Develop and implement policies and procedures for ensuring al l
       expenditures are allowable and submitting the annual progress reports in a timely
       manner.

       Potentia Response: To enhance controls on ensuring t hat all expenditure line items
       claimed are a llowable or not we will develop a policy document using the HHS Grant
       Policy Statement as well as the 45 CFR 74. This policy would then be used as a too l to
       monitor and ensure costs claimed are allowable.



Please do not hesitate to contact us should you require any further information.

              ly




                                                2
